IN THE SUPREME COURT OF THE UNITED STATES
GILBERTO AYUN-FLORES,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

I, MICHAEL MARKS, being first duly sworn, deposes and says: That
pursuant to Rule 29.4(a) of this Court he served the within PETITIONER'S
PETITION FOR WRIT OF CERTIORARITO THE COURT OF APPEALS FOR
THE NINTH CIRCUIT on the counsel for Respondent by enclosing a copy thereof in
an envelope, First Class Postage Prepaid, addressed to Noel Francisco, Solicitor
General of the United States, Department of Justice, 950 Pennsylvania Avenue,
N.W., Washington, D.C. 20530-0001; and included an original and ten (10) copies to
Hon. Scott S. Harris, Clerk United States Supreme Court, One First Street, N.E.,
Washington, D.C. 20543-0001 and depositing same in the United States mails at

San Diego, California on July 2, 2020.

MICHAEL MARKS

Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900

San Diego, California 92101
Telephone: (619) 234-8467
Attorneys for Petitioner
